Case 5:17-cv-00144-MCR-MAF Document 27 Filed 08/13/20 Page lot 2
Page 1 of 2

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION
SAM STERLING ALFORD,
Petitioner,
v.

CASE NO. 5:17cvl44-MCR/CAS

SECRETARY, DEPARTMENT
OF CORRECTIONS,
Respondent.
ORDER
This matter is before the Court on the Report and Recommendation of the
United States Magistrate Judge dated September 5, 2018. ECF No. 20. The parties
have been furnished a copy of the Report and Recommendation and have been
afforded an opportunity to file objections pursuant to 28 U.S.C. § 636(b)(1). I have
made a de novo determination of any objections timely filed. ECF No. 25.
Having considered the Report and Recommendation, and any objections
timely filed, I have determined the Report and Recommendation should be
adopted.

Case No. 5:17cv144-MCR/MAF

'

£

Case 5:17-cv-00144-MCR-MAF Document 27 Filed 08/13/20 Page 2 of 2
Page 2 of 2

Accordingly, it is now ORDERED as follows:
1. The Report and Recommendation, ECF No. 20, is adopted and
incorporated by reference in this Order.
2. The § 2254 petition for writ of habeas corpus, ECF No. 1, is DENIED.
3. A certificate of appealability is DENIED.
4. Leave to proceed in forma pauperis is DENIED.
DONE AND ORDERED this 13th day of August 2020.

si
M. CASEY RODGERS
UNITED STATES DISTRICT JUDGE

Case No. 5:17cv144-MCR/MAF

Case 5:17-cv-00144-MCR-MAF Document 28 Filed 08/13/20 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
PANAMA CITY DIVISION
SAM STERLING ALFORD
VS

CASE NO. 5:17-CV-00144-MCR-MAF

SECRETARY DEPARTMENT OF
CORRECTIONS STATE OF FLORIDA
JUDGMENT
Pursuant to and at the direction of the Court, it is
ORDERED AND ADJUDGED that the Petitioner take nothing and that this action
be DENIED. A certificate of appealability is DENIED.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
August 13. 2020
DATE

/si Monica Broussard
Deputy Clerk: Monica Broussard

Docket No. 20-13460-D
IN THE
UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT
SAM STERLING ALFORD,
Petitioner/Appellant,

28 U.S.C. § 2254 Appeal
Northern District Florida
Lower Case No.

v.
SECRETARY, DEPARTMENT OF CORRECTONS,
and ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents/Appellees.

APPLICATION FOR CERTIFICATE OF APPEALABILITY

CRYSTAL MCBEE FRUSCIANTE
The Frusciante Law Firm
11110 West Oakland Park Boulevard
Suite 388
Sunrise, Florida 33351
(954)551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com"
Counsel for Mr. Alford

1

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT
The following certificate of interested persons and corporate disclosure
Statement is provided pursuant to Federal Rule of Appellate Procedure 26.1:
Alford, Sam, S.; Petitioner/Appellant
Clark, ???; Judge, Florida First District Court of Appeal
Frusciante, Crystal M.; Counsel for Mr. Alford
Hess, Glenn; Elected State Attorney, Calhoun County, Florida
Inch, Mark S.; Secretary, Florida Department of Corrections
Jay, ???; Judge, Florida First District Court of Appeal
Kahn, ???; Judge, Florida First District Court of Appeal
Kelsey, ???; Judge, Florida First District Court of Appeal
McClellan, Hentz; Judge, Florida Fourteenth Judicial Circuit
Moody; Ashley; Florida Attorney General
Moore, Jennifer, M.; Assistant Attorney General
Padovano, ???; Judge, Florida First District Court of Appeal
Pate, Trisha Meggs; Assistant Attorney General
Register, Allen L.; Judge, Florida Fourteenth Judicial Circuit
Rodgers, Casey M.; Judge, Northern District of Florida
Rowe, ???.; Judge, Florida First District Court of Appeal
Schulte, Thomas J.; Trial Counsel
2

Simpson, Larry D.; Trial Counsel
Stampelos, Charles A.; Magistrate Judge Northern District of Florida
Swanson, ???; Judge, Florida First District Court of Appeal
Ufferman, Michael; Former Appellate Counsel
Wilson, Matt; Assistant State Attorney
Wolf, ???; Judge, Florida First District Court of Appeal

3

The Petitioner/Appellant SAM STERLING ALFORD, by and through
undersigned counsel and pursuant to 28 U.S.C.§ 2254 and Eleventh Circuit Rule
22-1, moves the Court to issue a certificate of appealability (“COA”) authorizing
the appeal of the denial of his petition for writ of habeas corpus. For the reasons
expressed below Mr. Alford submits that he has made a substantial showing of the
denial of his constitutional right to effective assistance of counsel.
Specifically Mr. Alford’s lawyer’s motion to consolidate cases without
advising and warning Mr. Alford that Florida courts had held that consolidation is
not proper in molestation cases where (as in Mr. Alford’s case) the offenses
occurred at different times and places and involved different victims. Roark v.
State, 620 So.2d 237, 239 (Fla. 1st DCA 1993). Mr. Alford’s attorneys also failed
to advise him the reason consolidation was not warranted in cases like his is
because of the risk of prejudice because: 1) When several charges have been made
against the defendant, the jury may consider that a person charged with doing so
many things is a bad person who must have done something, and may cumulate
evidence against him. 2) The jury may use the evidence of one case to convict the
defendant in another case even though that evidence would have been inadmissible
at a separate trial. 3) Joinder of cases that are factually similar but legally
unconnected presents the danger that a defendant will be subjected to the
omnipresent risk that although the evidence as would be admissible upon any one

4

of the charges might not persuade the jury of the accused's guilt, the sum of it will
convince them as to all.
A. Statement of the Case.
In 200?, Mr. Alford was charged with ???. the case proceeded to trial in ??. Mr. Alford’s
theory of defense was that the entirety of the allegations was made up because Ms.
Dunn was furious and upset when she found out he was seeing someone else. The
evidence showed that Ms. Dunn and Mr. Alford had been in a lengthy relationship
and that she called him repeatedly on July 7, 2007; that she was very angry. When
Ms. Dunn was unable to get Mr. Alford to return to the relationship one of her
daughters, D.F., a high schooler, came to Mr. Alford’s home, demanded to speak
with his girlfriend, Sharon, and informed her, with a smirk on her face, your
boyfriend is a child molester.”
Subsequently, both of Ms. Dunn’s daughters, high school aged women,
made allegations that Mr. Alford had sexually molested them. The State of Florida
filed a notice of intend to rely on similar fact evidence in each case. The trial court
indicated such evidence would be limited to prevent the similar fact evidence from
becoming a feature of the trial.
During the trial, both alleged victims and their mother, Ms. Dunn, testified
from several pages of notes made by the Ms. Dunn without objection from the
defense.

5

At the conclusion of the trial, the jury found Mr. Alford guilty of the ?? The
state trial court sentenced Mr. Alford to life imprisonment. On direct appeal, the
Florida First District Court of Appeal affirmed Mr. Alford’s conviction and
sentence. See Alford v. State, ???
Mr. Alford subsequently filed a state postconviction motion pursuant to
Florida Rule of Criminal Procedure 3.850. Following an evidentiary hearing, the
state postconviction court denied Mr. Alford’s rule 3.850 motion. Mr. Alford
appealed the state postconviction court’s denial of his rule 3.850 motion and the
Florida First District Court of Appeal reversed the denial of Mr. Alford’s rule
3,850 motion. See Alford v. State, ?? So. 3d ?? (Fla. 1st DCA 2015) finding that
Mr. Alford’s case was not a case where consolidation was warranted. The State
Appellate Court remanded the case for an evidentiary hearing addressing whether
there was a strategic benefit to consolidation and whether Mr. Alford was warned
of the serious risks associated with such a strategy.
Pursuant to the Florida District Court’s order, an evidential hearing was
held on the claim. After testimony from both of Mr. Alford’s attorneys, the state
postconviction court denied Mr. Alford’s claim finding that Mr, Alford had been
warned and that»»»
Mr. Alford appealed the state postconviction court’s ruling, which was
affirmed without an opinion.

6

Thereafter, Mr. Alford timely filed a petition pursuant to 28 U.S.C. § 2254.
(Doc ?). Mr. Alford raised several claims in the petition - ?two of which are the
focus of the instant pleading: (1) Defense counsel provided ineffective assistance
by moving to consolidate cases unrelated in time or place and failed to advise Mr.
Alford of the risks associated with consolidation of the cases, and (2) defense
counsel failed to call 7????1
The district court denied Mr. Alford’s § 2254 petition. (Docs 2? & 2?).
B.

Standard for issuance of a COA.

28 U.S.C. § 2253(c)(1) provides that “[u]nless a circuit justice or judge
issues a [COA], an appeal may not be taken to the court of appeals from — (B) the
final order in a proceeding under Section 2255.” 28 U.S.C. § 2253(c)(2) further
provides that “[a] [COA] may issue under paragraph (1) only if the applicant has
made a substantial showing of the denial of a constitutional right.” Finally, 28
U.S.C. § 2253(c)(3) provides that “[t]he [COA] under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by paragraph (2).”

1 Both of these claims were previously raised in Mr. Alford’s state
postconviction motion.

7

The provisions of 28 U.S.C. § 2253(c)(1) were included in the AntiTerrorism and Effective Death Penalty Act of 1996 (“AEDPA”), which amended
the statute governing appeals in habeas corpus and postconviction relief
proceedings. In Miller-El v. Cockrell, 537 U.S. 322, 336, 123 S. Ct. 1029, 1039
(2003), the Supreme Court observed that a COA will issue only if the requirements
of § 2253 have been satisfied. “§ 2253(c) permits the issuance of a COA only
where a petitioner has made a substantial showing of the denial of a constitutional
right.” Id. “Under the controlling standard, a petitioner must show that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further.” Id.
The Supreme Court in Miller-El recognized that determining whether a
COA should be issued “requires an overview of the claims in the habeas petition
and a general assessment of their merits.” Id. The Supreme Court looked to the
district court’s application of AEDPA to Mr. Miller-El’s constitutional claims and
asked whether that resolution was debatable amongst jurists of reason. The
Supreme Court explained:
This threshold inquiiy does not require full consideration of the
factual or legal bases adduced in support of the claims. In fact, the
statute forbids it. When a court of appeals side steps this process by
first deciding the merits of an appeal, and then justifying its denial
of a COA based on its adjudication of the actual merits, it is in
essence deciding an appeal without jurisdiction.
8

To that end, our opinion in Slack [v. McDaniel, 529 U.S. 473,
120 S. Ct. 1595 (2000),] held that a COA does not require a
showing that the appeal will succeed. Accordingly, a court of
appeals should not decline the application for a COA merely
because it believes the applicant will not demonstrate an
entitlement to relief. The holding in Slack would mean very little if
appellate review were denied because the prisoner did not convince
a judge, or, for that matter, three judges, that he or she would
prevail. It is consistent with § 2253 that a COA will issue in some
instances where there is no certainty of ultimate relief. After all,
when a COA is sought, the whole premise is that the prisoner “has
already failed in that endeavor.” Barefoot [v. Estelle, 463 U.S. 880,]
893 n.4., 103 S. Ct. 3383 [(1983)].

Id. at 336-37, 123 S. Ct. at 1039. The Supreme Court stressed that the issuance of a
COA must not be a matter of course. The Supreme Court clearly defined the test
for issuing a COA as follows:
A prisoner seeking a COA must prove “something more than the
absence of frivolity” or the existence of mere “good faith” on his or
her part. Barefoot, at 893, 103 S. Ct. 3383. We do not require
petitioner to prove, before the issuance of a COA, that some jurists
would grant the petition for habeas corpus. Indeed, a claim can be
debatable even though every jurist of reason might agree, after the
COA has been granted and the case has received full consideration,
that petitioner will not prevail. As we stated in Slack, “[w]here a
district court has rejected the constitutional claims on the merits,
the showing required to satisfy § 2253(c) is straightforward: The
petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or
wrong.” 529 U.S. at 484,120 S. Ct. 1595.
Id. at 338, 123 S. Ct. at 1040. As explained below, Mr. Alford submits that
reasonable jurists would find the district court’s assessment of his § 2254 claims
debatable or wrong.
9

C. Mr. Alford’s § 2254 claims.
Ground 1: Defense counsel provided ineffective assistance by moving to
consolidate molestation cases unrelated in time, place or victim and
failed to advise Mr. Alford of the risks associated with consolidation of
the cases.
In his § 2254 petition, Mr. Alford alleged that Defense counsel provided
ineffective assistance by moving to consolidate cases unrelated in time, place or
victims, and failed to advise Mr. Alford of the risks associated with consolidation
of the cases. As a result, Mr. Alford was denied his right to effective assistance of
counsel in violation of the Sixth Amendment to the United States Constitution.
Initially, the post-conviction court summarily denied this ground of Mr.
Alford’s postconviction motion. On appeal the First District Court of Appeal
reversed the decision and remanded the matter back to the trial court for an
evidentiary hearing. In the opinion reversing the postconviction court, the First
District Court of Appeal stated:
“This court has held that consolidation is not proper in molestation
cases where the offenses occurred at different times and places and involved
different victims.” Roark v State, 620 So. 2d 237, 239 (Fla. 1st DCA 1993).
“Moreover, this court has rejected the position that misjoinder would
constitute harmless error in all familial sexual battery cases where the
misjoined offenses would be admissible as collateral crime evidence,
explaining:
When collateral crime evidence is introduced, evidence of the
separate crime may not become a feature of the trial. The
amount of testimony which may be introduced as to the
additional crime is thus limited, many times resulting in only

10

the second victim being able to testify. No such limitation
occurs when offenses are joined for trial, where all relevant
evidence as to each crime being tried would be admissible.
Additionally, if collateral crime evidence is introduced, the
defense is entitled to have the judge read a limiting instruction.
No such instruction is available in consolidated trials. Id 240
“In this case, absent consent of appellant, consolidation would not be
warranted where offenses occurred at different times and places and
Consolidation allowed
involved different (although related) victims,
unrestricted admission of D.F.’s more extensive allegations against
appellant, which the trial court feared would unduly prejudice by becoming
a feature of the trial if admitted as collateral crime evidence”.
Alford v. State, 166 So.3d 219 (Fla. 1st DCA 2015). The case was reversed and
remanded for an evidentiary hearing “Because appellant’s claim that defense
counsel was ineffective for moving to consolidate the cases without advising him
of the risks is not conclusively refuted by the record.” Id.
Pursuant to the First District’s order, the postconviction court conducted an
evidentiary hearing. Trial counsel testified at the evidentiary hearing and never
indicated that he actually told Mr. Alford of the risks involved in consolidating the
cases.

Rather in response to what specific risk were discussed, Mr. Schulte,

(defense counsel) testified, “Well I mean, I think that was kind of inherent in what
we talked about.”
Co-counsel, Mr. Simpson testified that they didn’t advise Mr. Alford of the
risks. “I’m not sure we did it in those terms. We obviously talked about the fact
that he did have the right to have separate trials, insofar as the two girls’ testimony

11

was concerned, I don’t know that we put it in terms of what the risks were. I think
it was more in the sense of advantages that we felt were there to try the cases
together”. (R 2373) So, according to Mr. Simpson, Mr. Alford was encouraged to
agree to consolidate the cases, but not warned of the significant risks associated
with consolidation.
To obtain post-conviction relief on the basis of ineffective assistance of
counsel, a defendant must show (1) that counsel’s performance was deficient and
(2) that the deficient performance prejudiced the defense. Strickland v.
Washington, 466 U.S. 668 (1984).
Presenting consolidation as a reasonable trial strategy constituted ineffective
assistance of counsel as the circumstances of this case did not make consolidation
beneficial. Mr. Alford’s agreement was not knowingly given.
During the evidentiaxy hearing, Michael Kessler -- an attorney who was
accepted as an expert in criminal trial law - opined that there is a reasonable
probability that the testimony standing alone in each of these cases would have
been insufficient to convince a jury of Mr. Alford’s guilt. This is supported by the
record, which demonstrated that had the cases not been consolidated, similar fact
evidence would likely not have been admitted in both cases. This is especially true
in the E.F. case. The trial court stated that the use of evidence of acts alleged to

12

have been committed against D.F would likely be restricted in the E.F. trial
because it posed a risk of becoming the “feature” of that trial.
In denying Mr. Alford s § 2254 petition, the district court misapprehended
Florida law in making a determination that Counsel was not ineffective for the
failure to advise Mr. Alford of the risks of consolidation. In Florida, consolidation
is not proper in molestation cases where the offenses occurred at different times
and places and involved different victims. Alford v. State, 166 So.3d 219 (Fla. 1st
DCA 2015) citing Roark v. State, 620 So.2d 237, 239 (Fla. 1st DCA 1993).
(Emphasis added). In this case, offenses occurred at different times and places and
involved different victims. Advising Mr. Alford to agree to consolidation by telling
him it was advantageous to consolidate was ineffective assistance of counsel.
Further, the district court relied upon the postconviction court’s findings
which depended on Hanna v. State, 970 So.2d 385 (Fla. 3d DCA 2007) to support
denying Mr. Alford’s motion. In relying on Hanna the postconviction court
“applied Strickland to the facts of [this] case in a objectively unreasonable
manner.” Lawhorn v. Allen, 519 F.3d 1272 (11th Cir., 2008).
In Hanna, trial counsel opposed severing counts. Defense counsel had
secured a pretrial stipulation regarding Hanna’s “status as a three-time convicted
felon [that] limited the State's ability to offer extensive details regarding the
underlying violent crimes.” Thus, the decision was a reasonable trial strategy

13

because defense counsel in Hanna was able to keep out damaging evidence by
consolidation. Hanna v. State, 970 So.2d 385 (Fla. 3d DCA 2007).
There was no such strategic advantage for Mr. Alford. In fact, both the
testimony during the evidentiary hearing and the postconviction court’s order, fail
to describe any benefit of consolidation other than efficiency.
While there was minimal benefit to consolidation, the consequences of
consolidation were immense. Although some of the evidence from each case may
have been admissible in the other case as collateral evidence, the trial court ruled
pretrial that if such collateral crime evidence was introduced it would be limited so
that evidence of the separate crime would not become a feature of the trial. Travers
v. State, 578 So.2d 793 (Fla. 1st DCA 1991), rev. denied, 584 So.2d 1000
(Fla.1991); Turtle v. State, 600 So.2d 1214 (Fla. 1st DCA1992). Additionally, if
collateral crime evidence had been introduced at separate trials, the defense would
have been entitled to have the judge read a limiting instruction. No such instruction
is available in consolidated trials.” Roark v. State, 620 So.2d 237, 240 (Fla. 1st
DCA 1993)
The Florida Supreme Court explained the competing interests at stake in
considering consolidation of cases for trial. The justifications for the consolidation
of charges are convenience and the preservation of the courts' valuable resources.

14

However, practicality and efficiency cannot outweigh the defendant's right to a fair
trial.
Consolidation under such circumstances as in the instant case exposed Mr.
Alford to potential prejudice for three reasons: First, when several charges have
been made against a defendant, a jury might consider that a person charged with so
many crimes must have done something wrong, and might cumulate evidence
against the accused. Second, the jury may have used the evidence of one case to
convict the defendant in another case even though that evidence would have been
inadmissible at a separate trial. Third, joinder of factually similar, but legally
unconnected cases presents the omnipresent risk that although so much of the
evidence as would be admissible for any one of the charges might not persuade the
jury of the accused's guilt, the sum of it will convince them as to all. While the
testimony in one case standing alone may be insufficient to convince a jury of the
defendant's guilt, evidence that the defendant may also have committed another
crime can have the effect of tipping the scales. Crossley v. State, 596 So.2d 447,
449-50 (Fla. 1992). These risks of bolstering were not explained to Mr. Alford.
There is no testimony from counsel that these, or any other specific risks were
addressed. Absent an articulable benefit from consolidation that outweighs the
considerable disadvantages described in Roark, and Crossley, the advice to
consolidate cannot be considered a reasonable trial strategy and thus does not meet

15

the minimum standard of effective assistance of counsel pursuant to Strickland v.
Washington, 466 U.S. 668; 104 S. Ct. 2052; 80 L. Ed. 2d 674 (1984).
Further the postconviction court’s ruling that Mr. Alford’s attorneys
discussed the issue of consolidation and explained the risks associated with that
strategy is an unreasonable determination of the facts in light of the evidence.
Attorney Simpson testified that Mr. Alford was urged to agree to consolidation by
being advised of the advantages but without disclosure of the disadvantages. Mr.
Simpson testified, “I don’t know that we put it in terms of what the risks were.
I think it was more in the sense of advantages that we felt were there to try the
cases together.”

Mr. Alford has shown he was misadvised that consolidation was to his
advantage and he took the bad advice of his attorney. The mere discussion of the
fact that they might try the cases together does not equal a discussion of the pros
and cons of consolidation and a warning from defense counsel that in cases such as
Mr. Alford’s, consolidation was not warranted. Because they failed to warn him his consent to consolidation is not valid. Failure to advise of the risks of
consolidation is unreasonable and constitutes ineffective assistance of counsel.
Accordingly, for ail of the reasons set forth above, Mr. Alford submits that
he has made “a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). This claim is a matter debatable among jurists of reason.
16

Based on the record in the instant case, Mr. Alford meets the standard for obtaining
a COA “ this issue is “adequate to deserve encouragement to proceed further.”
Miller-El 537 U.S. at 336, 123 S. Ct. at 1039 (2003).

17

2.

Defense counsel rendered ineffective assistance of counsel when
counsel failed to present testimony of two crucial witnesses.

In his § 2254 petition, Mr. Alford alleged that Defense counsel rendered
ineffective assistance of counsel when counsel failed to present the testimony of
two crucial witnesses. As a result, the Petitioner was denied his right to effective
assistance of counsel in violation of the Sixth Amendment to the United States
Constitution.
Mr. Alford informed defense counsel that he wanted George Pelt to testify.
Mr. Pelt was listed on the witness list. Petitioner was unaware until the day of trial
that Mr. Pelt would not be called to testify.
In summarily denying the part of the motion regarding Mr. Pelt, the court
found that “Defendant alleges that more importantly, his testimony would have
corroborated Defendant’s testimony that he was not in the picture during the time
in question. Even if this witness testified as Defendant alleges it is not clear what
this witness would have added to Defendant’s case” However, this statement
ignored Mr. Alford’s contention that Mr. Pelt was interviewed by the defense and
was available to testify at trial. Had he been called to testify, Mr. Pelt would have
testified that he was in the home during the time period when the alleged sexual
abuse occurred and that Mr. Alford was not in the home during that time period.
This testimony was crucial as it indicated that the Petitioner could not have
perpetrated the crime. Such testimony, that it was impossible for Petitioner to have
18

committed some of the acts charged, would have raised doubt as to all charges.
This testimony would have raised reasonable doubt in the minds of the jury and the
Petitioner would likely have been acquitted.
The District Court Judge denied this claim finding, “the fact that the jury
was not persuaded by evidence and argument that the victims were lying about
Petitioner because their mother sought vengeance against Petitioner.” This finding
actually supports Mr. Alford’s claim that the jury was not persuaded by evidence,
because the evidence proving his innocence was not presented to the jury. It is Mr.
Alford’s position that had this evidence been presented for the jury’s consideration,
it would have persuaded the jury in his favor. The post-conviction court denied the
claim without a hearing on Mr. Pelt stating: “...Even if the witness testified as
Defendant alleges it is not clear what this witness would have added to defendant’s
case to affect the outcome of the trial.” It is unjust that the postconviction court
summarily denied this claim without an evidentiary hearing, because of uncertainty
of what the evidence would have been.

Mr. Alford was granted an evidentiary hearing regarding Cherie Hires. Ms.
Hires was the ex-girlfriend of Mr. Alford’s son and she had not had contact with
the Alford family since the trial. She was available to testify at trial and testified at
the postconviction evidentiary hearing that she was friends with both alleged

19

victims. She testified that after a volleyball game one night, E.F. was upset and
crying about the allegations that she made against Mr. Alford. E.F. told Cherie
“this is not our fault”. “This was our mom, our mom made us do this” E.F. kept
screaming and crying saying “it was her mom”. Cherie sent an email with this
general information to trial counsel and anticipated that she would be called as a
witness.
Despite the email, she was never interviewed until the postconviction
hearing. Ms. Hires’ testimony supported the theory of defense that the victim’s
mother, retaliating against Petitioner, forced the girls to make the allegations.
The trial court denied the motion after evidentiary hearing stating, “The
quote from E. F. as provided by Ms. Hires does not establish any further credence
to Defendant’s theory of defense than argued at trial by trial counsel. Additionally,
trial counsel’s concern over what Ms. Hires might say if called to testify seems to
have been justified by the testimony she gave at the evidentiary hearing which she
acknowledged was different in tone than the conversation as related in her e-mail
earlier.” Indicating that the decision was a tactical decision.
However, contrary to the District Court’s ruling, Ms. Hires testimony would
have provided an independent witness who was told by the alleged victim that her
mother forced her to make the allegations.
swayed the jury.

20

Such testimony could likely have

It is not reasonable for defense counsel to fail to call a potential defense
witness without first personally interviewing the witness (and making sure that the
witness was asked the correct questions as to her knowledge of the case). The
Fifth Circuit Court of Appeals held in Bryant v. Scott, 28 F.3d 1411, 1419 (5th Cir.
1994)
Although factors tending to diminish [the witness’s] credibility
might support a strategic decisions not to call [the witness] at trial,
those considerations do not suggest that [the attorney’s] total failure
to investigate [the witness’s] testimony was a strategic decision.
Without speaking to [the witness], [the attorney] was ill equipped
to assess his credibility or persuasiveness as a witness, despite the
objective factors tending to impugn [the witness’s] credibility.
(Emphasis added) In light of defense counsel’s failure to personally speak with Ms.
Hires, it cannot be said that the decision not to call her as a witness at trial was a
reasonable trail strategy. In Cave v. Singletary, 971 F.2d 1513, 1518 (11th Cir.
1992), the Eleventh Circuit opined that although the question of whether a decision
was tactical was a question of fact, whether the tactic was reasonable is a question
of law and the state court was not entitled to deference on the point.
In order for strategy to be reasonable, it must be based on factual
information. Ignorance of a witness cannot form the basis for a reasonable trial
strategy. See Hardwick v. Crosby, 320 F.3d 1127, 1186 n.209 (11th Cir. 2003)
Accordingly, defense counsel’s failure to personally interview (or have someone
else interview) Ms. Hires precludes a finding that the decision was a reasonable

21

pj. ;.

’?> ^

trial strategy. Thus, the trial court’s determination was an unreasonable application
of the facts to the law or was contrary to or an unreasonable application of federal
constitutional law.
Accordingly, for all of the reasons set forth above, Mr. Alford submits that
he has made a substantial showing of the denial of a constitutional right.” 28
U-S.C. § 2253(c)(2). This claim is a matter debatable among jurists of reason.
Based on the record in the instant case, Mr. Alford meets the standard for obtaining
a COA - this issue is “adequate to deserve encouragement to proceed further.”
Miller-El, 537 U.S. at 336, 123 S. Ct. at 1039 (2003).

D.

Conclusion.

Mr. Alford submits that he has satisfied the test set forth in Miller-El for the
issuance of a COA (i.e., reasonable jurists can debate whether Mr. Pelto’s § 2254
ineffective assistance of counsel claims should have been resolved in a different
manner or that the issues presented are adequate to deserve encouragement to
proceed further). Accordingly, Mr. Pelto requests the Court to issue a COA in this
case.

22

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument
has been furnished by CM/ECF electronic delivery and U.S. mail delivery this 29th
day of September 2020 to:
Jennifer Johnson Moore
Assistant Attorney General
PL-01, The Capitol
Tallahassee, FL 32399-1050
Email: Jennifer.moore@myfloridalegal.com

s/Crvstal M. Frusciante
Crystal M. Frusciante
Florida Bar No. 802158
11110 W Oakland Park Blvd.
Suite 388
Sunrise, Florida 33351
(954) 551-2350 (866) 936-4546
ffusciantelaw@aol.com
Counsel for Mr. Alford.

24

USCA11 Case: 20-13460

Date Filed: 12/28/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13460-D
SAM STERLING ALFORD,
Petitioner-Appellant,
versus
SECRETARY DEPARTMENT OF CORRECTIONS
STATE OF FLORIDA,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
ORDER:
Sam Alford is a Florida prisoner serving a life sentence in two cases for sexual battery and
lewd or lascivious molestation. In the instant, counseled 28 U.S.C. § 2254 petition, he arguedthat
trial counsel was ineffective by (1) failing to object to, or advise him of the risks associated with,
the consolidation of his cases; and (2) failing to present testimony of two crucial witnesses at trial.
He had previously raised these claims in a Fla. R. Crim. P. 3.850 motion, which the state habeas
court denied on the merits after a hearing.
A magistrate judge entered a report and recommendation (“R&R”), recommending that the
district court deny Alford’s § 2254 petition. Over Alford’s objections, the district court adopted
the R&R and denied him a certificate of appealability (“COA”) and leave to proceed in forma
pauperis. Alford paid the filing fee, and he now seeks a COA from this Court.

USCA11 Case: 20-13460

Date Filed: 12/28/2020

Page: 2 of 3

In order to obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

The movant satisfies this requirement by

demonstrating that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong, or that the issues deserve encouragement to proceed
further. Slack v. McDaniel, 529 U.S. 473,484 (2000) (quotation marks omitted). If a state court
has adjudicated a claim on the merits, a federal court may grant habeas relief only if the decision
of the state court (1) “was contrary to, or involved an unreasonable application of, clearly
established [fjederal law, as determined by the Supreme Court,” or (2) “was based on an
unreasonable determination of the facts in light of the evidence presented in the [sjtate court
proceeding.” 28 U.S.C. § 2254(d)(1), (2). To make a successful claim of ineffective assistance of
counsel, a defendant must show both that (l) his counsel’s performance was deficient, and(2) the
deficient performance prejudiced his defense. Strickland v. Washington, 466 U.S. 668,687 (1984).
As to Claim 1, reasonable jurists would not debate the district court’s denial of this claim.
According to primary counsel’s testimony at the state habeas evidentiary hearing, which the state
habeas court found to be credible, counsel discussed consolidation, including its risks and benefits,
several times throughout the pre-trial phase, and Alford affirmatively agreed to consolidation. The
state court’s credibility finding is presumed to be correct, and Alford failed to present any clear
and convincing evidence to rebut this presumption. See Consalvo v. Sec ’y for Dep ’t of Corr., 664
F.3d 842, 845(11th Cir. 2011).
Further, despite an expert’s opinion to the contrary at the hearing, the state habeas court
reasonably found that counsel’s decision to consolidate the cases was a reasonable strategic
decision, given his and co-counsel’s testimony that (l) they thought that it would be more difficult
to win two separate cases; (2) the defense would have been the same at both trials; and (3) at least

2

USCA11 Case: 20-13460

Date Filed: 12/28/2020

Page: 3 of 3

some of the evidence of acts done against one victim likely would have been presented at the trial
regarding the other victim, based on the trial court’s ruling on Alford’s motion in limine. Because
reasonable strategic decisions are “virtually unchallengeable,” the district court properly found
that the state court’s denial of Claim 1 was not an unreasonable application of federal law or the
facts. See Strickland,, 466 U.S. at 690; 28 U.S.C. § 2254(d)(1), (2).
Reasonable jurists also would not debate the district court’s denial of Claim 2. The state
habeas court’s denial of Claim 2 was not an unreasonable application of the law or the facts, given
that Alford did not establish prejudice. See Strickland, 466 U.S. at 687; 28 U.S.C. § 2254(d)(1),
(2). Even with the testimony of the two witnesses, there was not a reasonable probability that the
jury would have acquitted Alford, especially given the other evidence of his guilt—namely that
the victims both identified him as the perpetrator at trial. See Strickland, 466 U.S. at 694.
Accordingly, Alford’s motion for a COA is DENIED.

/s/ Robin S. Rosenbaum
UNITED STATES CIRCUIT JUDGE

3

Docket No. 20-13460-D
IN THE
UMITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT

SAM STERLING ALFORD,
Petitioner/Appellant,
v.

28 U.S.C. § 2254 Appeal

SECRETARY DEPARTMENT OF CORRECTIONS,
STATE OF FLORIDA.
Respondents/Appellees

MOTION FOR RECONSIDERATION

Crystal McBee Frusciante
The Frusciante law Firm
11110 West Oakland Park Boulevard
Suite 388
Sunrise, Florida 33351
(954) 551-2350
Florida Bar No. 802158
Email: crystal@frusciantelaw.com
frusciantelaw@me.com
Counsel for Mr. Alford

l

CERTIFICATE OF INTERESTED PERSONS AND
CORPORATE DISCLOSURE STATEMENT
The following certificate of interested persons and corporate disclosure
statement is provided pursuant to Federal Rule of Appellate Procedure 26.1:
Alford, Sam Sterling; Petitioner/Appellant
Clark, Nikki Ann; Judge, Florida First District Court of Appeal
Frusciante, Crystal McBee; Counsel for Mr. Alford
Hess, Glenn; Elected State Attorney, Florida, Fourteenth Judicial Circuit
Inch, Mark S.; Secretary, Florida Department of Corrections
Jay, Harvey L.; Judge, Florida First District Court of Appeal
Kahn, Charles J.; Judge, Florida First District Court of Appeal
Kelsey, Susan L.; Judge, Florida First District Court of Appeal
McClellan, Hentz; Judge, Florida Fourteenth Judicial Circuit
Moody, Ashley; Florida Attorney General
Moore, Jennifer M.; Assistant Attorney General
Padovano, Philip J.; Judge, Florida First District Court of Appeal
Pate, Trisha Meggs; Assistant Attorney General
Register, Allen L.; Judge, Florida Fourteenth Judicial Circuit
Rodgers, Casey M.; Judge, Northern District of Florida
Rowe, Lori S.; Judge, Florida First District Court of Appeal
Schulte, Thomas J.; Trial Counsel
2

Simpson, Larry D.; Trial Counsel
Stampelos, Charles A.; Magistrate Judge, Northern District of Florida
Swanson, Ronald V.; Judge, Florida First District Court of Appeal
Ufferman, Michael; Former Appellate Counsel
Wilson, Matt; Assistant State Attorney, Fourteenth Judicial Circuit
Wolf, James R.; Judge, Florida First District Court of Appeal

3

The Petitioner/Appellant, SAM STERLING ALFORD, by and through
undersigned counsel and pursuant to Eleventh Circuit Rule 27-2, moves the court to
reconsider its December 28, 2020 order, and alleges:
1.

Mr. Alford is requesting the Court to issue a certificate of appealability

(“COA”) authorizing the appeal of the denial of his 28 U.S.C. § 2254 petition.
2.

In the Court’s December 28, 2020 order, the Court stated:
As to Claim 1, reasonable jurists would not debate the district
court’s denial of this claim. According to primary counsel’s
testimony at the state habeas evidentiary hearing, which the state
habeas court found to be credible, counsel discussed consolidation,
including its risks and benefits, several times throughout the pre-trial
phase, and Alford affirmatively agreed to consolidation. The state
court’s credibility finding is presumed to be correct, and Alford
failed to present any clear and convincing evidence to rebut this
presumption. See Consalvo v. Sec ’yfor Dep’t of Corr., 664 F.3d 842,
845 (11th Cir. 2011).
Further, despite an expert’s opinion to the contrary at the
hearing, the state habeas court reasonably found that counsel’s
decision to consolidate the cases was a reasonable strategic decision,
given his and co-counsel’s testimony that (1) they thought that it
would be more difficult to win two separate cases; (2) the defense
would have been the same at both trials; and (3) at least some of the
evidence of acts done against one victim likely would have been
presented at the trial regarding the other victim, based on the trial
court’s ruling on Alford’s motion in limine. Because reasonable
strategic decisions are “virtually unchallengeable,” the district court
properly found that the state court’s denial of Claim 1 was not an
unreasonable application of federal law or the facts. See Strickland,
466 U.S. at 690; 28 U.S.C. § 2254(d)(1), (2).

4

3.

As explained in Mr. Alford’s motion for COA, Florida Courts have

determined that consolidation is not proper in molestation cases where (as in Mr.
Alford’s case) the offenses occurred at different times and places and involved
different victims. Roark v. State, 620 So.2d 237, 239 (Fla. 1st DCA 1993). As a
result, the State Appellate Court reversed the state court’s initial denial of Mr.
Alford’s postconviction motion. See Alford v. State, 166 So.3d 219 (Fla. App.
2015). The State Appellate Court found that Mr. Alford’s case was not a case
where consolidation was warranted. The State Appellate Court remanded the case
for an evidentiary hearing addressing whether there was a strategic benefit to
consolidation and whether Mr. Alford was warned of the serious risks associated
with consolidation.
This Court’s determination that “Because reasonable strategic decisions are
“virtually unchallengeable, ” the district court properlyfound that the state court’s
denial of Claim 1 was not an unreasonable application offederal law or thefacts
overlooks this state appeals court’s instruction.
In denying Mr. Alford’s § 2254 petition, the federal district court determined
the state postconviction court’s findings were not an unreasonable application of
federal law or the facts. The state postconviction court relied on Hanna v. State to
support denying Mr. Alford’s motion. In relying on Hanna the postconviction court
“applied Strickland to the facts of [this] case in a objectively unreasonable manner.”

5

Lawhorn v. Allen, 519 F.3d 1272 (11th Cir., 2008). In Hanna, trial counsel opposed
severing counts and had secured a pretrial stipulation regarding Hanna’s “status as a
three-time convicted felon [that] limited the State's ability to offer extensive details
regarding the underlying violent crimes.” Thus, counsel’s decision in Hanna was a
reasonable trial strategy because he was able to keep out significanly damaging
evidence by consolidation. Hanna v. State, 970 So.2d 385 (Fla. 3d DCA 2007).
Counsel’s advice to Mr. Alford to consolidate the cases afforded no such advantage
and was not a reasonable trial strategy and constitutes ineffective assistance of
counsel.
There can be no waiver of a fundamental constitutional right to a fair trial
(where each charge is adjudicated on its merits) unless there is an “intentional
relinquishment or abandonment of a known right or privilege.” Johnson v. Zerbst,
304 U.S. 458, 464, 58 S.Ct. 1019, 1023 (1938). Mr. Alford did not make an
intentional waiver of his right to separate trials. The trial court made no inquiry of
Mr. Alford’s understanding of the consequences of consolidation. We know from
the record that Mr. Alford was not told that consolidation is not considered a
reasonable trial strategy in cases like his. We know that neither of his attorneys told
him the risks associated with consolidation. At the evidentiary hearing on the
postconviction motion, co-counsel, Mr. Simpson, admitted that they did not tell Mr.
Alford of the risks, rather they told him the benefits of consolidation.

6

Co-counsel, Mr. Schulte, was asked repeatedly what risks he explained to Mr.
Alford. He testified he explained that consolidation would allow both alleged
victims to testify without a cautionary instruction. He did not specifically explain
the reasons that consolidation was so dangerous in cases like Mr. Alford’s. He
believed those risks were “kind of inh erent” in the discussion despite his confession
that he only advised Mr. Alford that one trial “made more sense” and that proceeding
with one trial wouldn’t change their strategy.
For Mr. Alford, a man who had never been involved in the criminal judicial
system, the risks were not inherent in a discussion where his attorney is telling him
that one trial makes more sense and it didn ’t really matter because it wouldn’t change
their trial strategy.
Such advice is ineffective assistance of counsel because Defense counsel bore
the primary responsibility to advise Mr. Alford of the risks associated with
consolidation and failed to do so. Trial counsel failed to inform Mr. Alford of three
dangers of consolidation. First, the jury might cumulate the evidence and decide that
a person with multiple charges must have done something wrong. Second, the jury
may use evidence of one case to convict the defendant in another case even though
that evidence would have been inadmissible at a separate trial. Third, in cases that
are factually similar, but legally unconnected, a defendant will be subjected to the
omnipresent risk that although the evidence on any one of the charges might not

7

persuade the jury, the sum of it will convince them as to all. None of these risks were
explained to Mr. Alford.
Because Mr. Alford did not have the “advice of competent counsel,” Mr.
Alford was lead to believe that it made no difference whether he had one or two
trials. Had Mr. Alford been properly informed, he would not have waived his
fundamental constitutional right to a fair trial.

Thus, the record establishes a

substantial showing of the denial of Mr. Alford’s constitutional rights - (1) the denial
of Mr. Alford’s constitutional right to effective assistance of counsel and - (2) the
denial of Mr. Alford’s right to a fair trial.
In light of these facts, Mr. Alford respectfully submits that he has made a
substantial showing of the denial of a constitutional right to effective assistance of
counsel resulting in the waiver of his right to a fair trial. See28U.S.C. § 2253(c)(2).
WHEREFORE, for the reasons set forth above, Mr. Alford prays the
Court to reconsider its December 28, 2020, order and thereafter grant a COA on the
issue of whether defense counsel failed to properly advise Mr. Alford of the risks
presented by consolidation and thus denied Mr. Alford’s right to a fair trial.

8

CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMIT
Certificate of Compliance With Type-Volume Limit,
Typeface Requirements, and Type-Style Requirements
This document complies with the word limit of Eleventh Circuit Rule 22-2
because this document contains 1501 words. This document complies with the
typeface requirements of Federal Rule Appellate Procedure 32(a)(5) and the typestyle requirements of Federal Rule Appellate Procedure 32(a)(6) because this
document has been prepared in a proportionally spaced typeface using Microsoft
Word Times New Roman 14-point font size.

9

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument
has been furnished by CM/ECF electronic delivery and U.S. mail delivery this
13th day of January 2021 to:
Jennifer Johnson Moore, Assistant Attorney General
PL-01, The Capitol
Tallahassee, FL 32399-1050
Email: Jennifer.moore@myfloridalegal.com

s/Crvstal McBee Frusciante
Crystal McBee Frusciante
Florida Bar No. 802158
11110 West Oakland Park Blvd.
Suite 388
Sunrise, Florida 33351
(954) 551-2350
crvstal@frusciantelaw.com
frusciantelaw@aol.com

Counsel for Mr. Alford.

10

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13460-D
SAM STERLING ALFORD,
Petitioner-Appellant,
versus
SECRETARY DEPARTMENT OF CORRECTIONS
STATE OF FLORIDA,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
Before: WILSON and ROSENBAUM, Circuit Judges.
BY THE COURT:
Sam Alford has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-l(c) and
27-2, of this Court’s December 28, 2020, order denying his motions for a certificate of
*

appealability on appeal in his underlying 28 U.S.C. § 2254 petition. Upon review, Alford’s motion
for reconsideration is DENIED because he has offered no new evidence or arguments of merit to
warrant relief.

Additional material
from this filing is
available in the
Clerk's Office.

